                                     SOCIAL SECURITY
MEMORANDUM
                                                                             Refer To:
Date:   February 4, 2003

To:     The Commissioner

From:   Inspector General

Subject: Performance   Indicator Audit: Customer Satisfaction (A-02-02-11082)


        We contracted with PricewaterhouseCoopers (PwC) to evaluate the data used to
        measure 18 of the Social Security Administration’s (SSA) Fiscal Year 2002 performance
        indicators established to comply with the Government Performance and Results Act.
        The attached final report presents the results of two of the performance indicators PwC
        reviewed. The objective of this audit was to assess the reliability of the data used to
        measure the percent of people doing business with SSA who rate their overall
        satisfaction as good, very good or excellent.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                        James G. Huse, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



   PERFORMANCE INDICATOR
          AUDIT:
   CUSTOMER SATISFACTION


  February 2003   A-02-02-11082
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
MEMORANDUM

To:               Office of the Inspector General

From:             PricewaterhouseCoopers LLP

Date:             January 27, 2003

Subject:          Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)

The Government Performance and Results Act (GPRA) of 19931 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity set forth in its budget.2
GPRA also calls for a description of the means employed to verify and validate the
measured values used to report on program performance.3 The objective of this audit
was to assess the reliability of the data used to measure the following Fiscal Year (FY)
2002 GPRA performance indicators:

Performance Indicators                                                         FY 2002 Goal

Percent of people who do business with SSA rating the overall                          82%4
service as “excellent,” “very good,” or “good.”

Percent of people who do business with SSA rating the overall                          30%5
service as “excellent.”

Because FY 2002 survey data and results were not available at the time of this audit,
we used the latest available data (FY 2001) in our audit. See Appendix A for a
description of the audit scope and methodology.

BACKGROUND
SSA offers retirement and long-term disability programs to the general public. Old-Age,
Survivors, and Disability Insurance (OASDI) is authorized under title II of the Social


1
    Public Law No. 103-62, 107 Stat. 285.
2
    31 U.S.C. 1115 (a) (4).
3
    31 U.S.C. 1115 (a) (6).
4
 Social Security: Performance Plan for Fiscal Year 2003, Revised Final Performance Plan for Fiscal Year
2002, page 64.
5
    Ibid.



Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)
Security Act.6 Through the OASDI program, eligible workers and sometimes their family
receive monthly benefits if they retire at an appropriate age or are found to have a
disability that either prevents them from engaging in substantial gainful activity for at
least 12 months or can be expected to result in death. 7 Supplemental Security Income
(SSI) is authorized under title XVI of the Social Security Act and provides monthly
payments to aged, blind, and disabled individuals based on financial need and medical
requirements. 8

One of SSA’s strategic goals is to provide world-class customer service for individuals
participating in the OASDI and SSI programs. In its FY 2002 Annual Performance Plan,
SSA included two performance indicators with respect to customer satisfaction. The
first performance indicator measures the percent of core business customers who rated
the service received as “excellent,” “very good,” or “good” (E/VG/G) on a 6-point scale
ranging from “excellent” to “poor.” The percentage is calculated by dividing the number
of E/VG/G responses by the total number of responses. The second performance
indicator measures the number of core business customers who rated the overall
service as “excellent” on a 6-point scale ranging from “excellent” to “poor.” The
percentage is calculated by dividing the number of “excellent” responses by the total
number of responses.

To assess its progress in meeting this goal, SSA developed a strategy to track customer
satisfaction with SSA interactions under the agency’s Market Measurement Program.
The interaction tracking surveys measure customers’ satisfaction with their last contact
with SSA. They consist of three surveys: the 800-Number Customer Survey, the Field
Office (FO) Caller Survey, and the Office Visitor Survey. To report the final customer
satisfaction indicators, the Office of Quality Assurance and Performance Assessment
(OQA) combines the customer satisfaction from the three surveys, weighting each
survey by the customer universe it represents.

The 800-Number Customer Survey evaluates the satisfaction of customers who call
SSA’s 800-number. When a customer calls the toll free number, the Automatic Number
Identifier (ANI) system collects data about the call, i.e., phone number, date, time, and
duration. OQA selects a random sample of completed calls9 over a four-week period
twice a year (principally August and February). OQA excludes calls from blocked
numbers, businesses, pay phones, or other locations where the customer is not
identifiable. OQA has a contractor call the customer, conduct the survey, and compile
the responses. OQA analyzes and reports the results.



6
    42 U.S.C. 401. et seq.
7
    42 U.S.C. 423 (d) (1).
8
    42 U.S.C. 1381 et seq.
9
  A “completed” call is one in which the customer chooses an option from the automated menu or enters
the queue to speak to a customer service representative.


Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                                      2
The FO Caller Survey evaluates the satisfaction of customers who call a selected FO.
OQA selects approximately 110 FOs to participate in the FO Monitoring Survey. From
this, OQA selects approximately 50 FOs each year to participate in the FO Caller
Survey. (See Appendix D for more description of the selection process.) The FO Caller
Survey is performed twice a year for four weeks each time, encompassing most of
November and May. During the survey period, each FOs’ caller ID System records the
date and time of contact, length of call, and phone number of the caller. FOs then
report this information to OQA, who selects a random sample of callers to participate in
the survey. OQA excludes calls from blocked numbers, businesses, pay phones, or
other locations where the customer is not identifiable. OQA has a contractor conduct
the survey via phone and compile the responses. OQA analyzes and reports the
results.

The Office Visitor Survey evaluates the satisfaction of customers who visit a
participating FO or Hearing Office (HO). OQA makes 2 separate selections of 52 FOs
and 13 HOs to participate for 1 week in the survey. (See Appendix D for more
description of the selection process.) OQA staggers the FO or HO participating in the
survey over an 8-week period, during the second and fourth quarters of the FY. The
fourth quarter survey starts at the end of July and extends through mid September and
the second quarter survey starts at the end of January and extends through late March.
The FO or HO records each customer’s name, address, telephone number, and reason
for the visit and forwards this information electronically to OQA daily. Twice a week,
OQA selects a random sample of customers to participate in the survey. A contractor
mails the survey to the selected customers. Customers are asked to return the survey
directly to OQA, who analyzes and reports the results.

Appendix C provides a workflow and description of each survey.

RESULTS OF REVIEW
From May 2002 to July 2002, we reviewed the processes, controls, and data used to
generate the FY 2001 customer satisfaction performance indicators:

   1. Percent of people who do business with SSA rating the overall service as
      “excellent,” “very good,” or “good.”
   2. Percent of people who do business with SSA rating the overall service as
      “excellent.”

Overall, we found that the indicators were accurately and reasonably calculated in
FY 2001. We also reviewed the methodology SSA planned to use to calculate these
indicators in FY 2002. Although the final FY 2002 data and results were not available
for this report, SSA indicated they will use the same approach that was used in FY 2001
for calculating the performance indicators in FY 2002.




Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                     3
We identified areas where methods used to measure the indicators may be improved.
The indicator results could better reflect the satisfaction of all people who do business
with SSA. Also, SSA could implement better controls to enhance the reliability of the
results.

PERFORMANCE INDICATOR DATA WAS RELIABLE

We reviewed the processes and controls for the FY 2001 and FY 2002 interaction
tracking surveys administered by OQA from July 2000 to June 2002. Our review did not
identify any differences between the 2 years that would affect performance indicator
results. At the time of our review, OQA had not completed processing of the FY 2002
surveys and had not developed the final FY 2002 performance indicator results.
Therefore, we conducted our audit of the data and performance indicators for the most
recent available time period, FY 2001.

Our overall assessment is that the weighted average survey results are a reasonable
calculation of the overall customer satisfaction performance indicators. (See Appendix
D for a description of the weighting process.) The three surveys that form the basis of
the indicators were developed and administered accurately. For FY 2002, the
methodology used to define the sample frame, perform a random sample selection, and
conduct the survey is appropriate for the type of survey estimates produced and is
expected to give a statistically representative result of the population being measured.
Positive elements we observed in the survey process included:

       §   A well-structured approach to defining and listing the sample frame and
           selecting the sample.
       §   A survey approach that optimized response rate within the available
           resources.
       §   Thorough controls for reviewing the survey data collected by the contractors.
       §   Trained and knowledgeable staff within OQA to produce the survey results.

Despite the good execution of the current set of surveys, there is some risk that the
survey results calculated are not representative of all people who do business with SSA.
We successfully replicated the survey results reported by OQA for FY 2001 and believe
the final performance indicator results are accurate. However, we noted weaknesses in
some internal controls for calculating the survey results.

SURVEY RESULTS MAY NOT ADEQUATELY REFLECT THE
ENTIRE CUSTOMER POPULATION

Our audit identified two areas of potential concern about whether the performance
indicators reflect the intended “population of people who do business with SSA.”




Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                          4
Certain SSA Transactions Are Not Represented in Any of the Surveys

Mail Transactions – OQA acknowledged that they do not have a survey to formally
review customer satisfaction with mail transactions. They do not have statistics
available on the relative size of this customer segment, although their consensus was
that it is shrinking. OQA noted that it is hard to determine the number of mail
transactions because there are several places where SSA receives mail transactions.
Internet Transactions – OQA indicated they have Internet surveys on customer
satisfaction through the SSA web site. However, OQA does not include the results of
these surveys because the survey is self-selecting and only those customers interested
in completing the survey would be included. As a result, the Internet survey results are
not included in the formal customer satisfaction performance indicators.

The satisfaction of mail and Internet customers may be significantly different than the
customer satisfaction currently represented in the overall performance indicators. If so,
the current performance indicators are biased estimates of the true level of satisfaction
of people who do business with SSA. If the satisfaction levels for mail and Internet
transactions are similar to the overall results of the current surveys or if the populations
represented by these types of transactions are small, the effect of the bias is small.
Without further information, we are not able to estimate the magnitude of this particular
finding but we do note that it is a risk.

SSA’s FY 2001 Performance and Accountability Report specifies that the customer
satisfaction indicators are calculated based on service contacts, “either by telephone or
in-person.” Thus, the reported indicators properly inform the reader of which
populations are represented by the results.

Surveys Are Not Performed on a Continuous Basis, But Over
Discrete Time Periods

SSA conducts the 800-Number Customer and FO Caller surveys biannually. Each time,
the survey extends over a 4-week period. The 800-Number Customer surveys are done
in August and February and the FO Caller surveys are done in November and May.

SSA also conducts the Office Visitor surveys biannually. Each time, the survey extends
over an 8-week period. For the Office Visitor surveys, the first survey starts at the end
of July and extends through mid September and the second starts at the end of January
and extends through late March. As a result, OQA conducts very few or no interaction
tracking surveys in more than 6 months of the year (January, April, June, July, October,
and December). It is unlikely that the customer satisfaction from the interaction tracking
surveys exactly matches the true customer satisfaction across the entire year.

However, we cannot exactly quantify the impact of this observation on the results for
FY 2001. Based on the current survey design, we can make the following statements:




Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                             5
   §    For 800 Caller and FO Caller surveys, each percentage point that customer
        satisfaction is lower or higher during the non-sampled time periods, the survey
        results are overstated or understated respectively by 0.85 percentage points.
   §    For Office Visitor surveys, each percentage point that customer satisfaction is
        lower or higher during the non-sampled time periods, the survey results are
        overstated or understated respectively by 0.69 percentage points.

(Note: these values are approximated and do not take into account survey weighting or
national holidays. See Appendix D for more detail about the calculations.)

OQA does not believe that customer satisfaction fluctuates enough to warrant
performing the surveys on a continuous basis. As support, OQA explained that it once
conducted the 800-Number Customer surveys quarterly and that they reduced the
surveys to twice per year because of the consistency of the results. Furthermore, OQA
has informed SSA that it will begin conducting each of the interaction surveys only once
per year, effective in FY 2003 due to workload and budgetary constraints.

To investigate the contention of stable survey results, we examined some of the recent
800-Number Customer caller results, shown below. The results from each time period
within each FY do not differ greatly and in most cases do not represent a statistically
significant difference. However, excluding one of the surveys can change the overall
satisfaction measure. For example, if the February 2001 results were the only 800-
Number Customer survey results used to calculate the final FY 2001 performance
indicator, which combines results from all three surveys, the percentage of people rating
service as E/VG/G would have been 80 percent, instead of the reported 81 percent.
The variability in the FO Caller and Office Visitor surveys is similar to that of the 800-
Number Customer.

                 Figure 1: 800-Number Customer Survey Results
           Survey Type           Time     Reporting Excellent               E/VG/G
                                Period      Year
       800-Number Customer      Aug-98     FY1999       33                     83
       800-Number Customer      Feb-99     FY1999       33                     84
       800-Number Customer      Aug-99     FY 2000      27                     80
       800-Number Customer      Feb-00     FY 2000      27                     81
       800-Number Customer      Aug-00     FY 2001      25                     81
       800-Number Customer      Feb-01     FY 2001      25                     79

As a result, we find that having only 8 or 16 weeks of measurement does not
adequately guard against the risk of generating a biased result, one that is not reflective
of customer satisfaction throughout the calendar year. In our opinion, conducting the
survey once a year will further reduce the validity of projecting its results to an annual
performance indicator.




Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                        6
WEAKNESS IN CONTROLS

During our audit of the customer service performance indicators, we found weaknesses
in controls surrounding three areas.

Subjective Determination of Survey Responses

During our audit, we obtained a sample of 45 customer responses from the Office
Visitor mail survey. We compared the written responses to OQA’s data to validate that
the data had been transcribed correctly. On one form, the respondent left the question
for overall satisfaction blank, but a value of “excellent” was recorded in the data base.
OQA staff indicated that they determined the appropriate rating from the respondent’s
comments on the questionnaire. This approach carries a risk of biasing the results or
creating the appearance of biasing results. We would not characterize this approach as
consistent with best practices in survey research.

Risk for Producing Inaccurate Survey Estimates

When OQA provided us with the FY 2001 Office Visitor survey data, it recognized that
some valid data records had been excluded from the original calculation of the survey
estimates because the records were not assigned survey weights. Adjusting the data to
include these missing records and their correct weights did not result in a change to the
performance indicators. However, this data exclusion illustrates a lack of controls in
validating that survey weights are associated with all valid records before calculation of
final survey estimates. While the final FY 2001 performance indicator estimates were
not impacted, there could be discrepancies in the future.

Lack of Documentation of Methodology to Combine the Survey
Results into a Single Annual Indicator

We reviewed OQA’s methodology and process for combining the FY 2001 survey
results into the final satisfaction performance indicators. To evaluate OQA’s
methodology, we analyzed the spreadsheet used to calculate the final results, reviewed
other documents showing the derivation of inputs to the process, and discussed the
methodology and process with OQA staff. While we determined that the methodology
was reasonable and we were able to replicate the final results, the documentation was
insufficient in two ways:

   §   It was not generated in advance of the survey year.
   §   It was not complete. The sources of information for the process were mostly oral
       discussions with OQA and inference based on the equations in the computer files
       provided.

Office of Management and Budget Circular Number A-123, Management Accountability
and Control, Section II, page 6, states, in part, that, “The documentation for
transactions, management controls, and other significant events must be clear and



Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                       7
readily available for examination.” This lack of documentation could affect OQA
succession planning and leave the appearance of impropriety in future years. For
example, the way in which rounding is performed could make the difference between
achieving or failing to meet performance indicator goals. Because of this, it is important
for SSA to have documentation for its process of combining multiple survey results into
a single indicator.


CONCLUSIONS AND RECOMMENDATIONS
Our overall conclusion is that the key performance indicators are accurate. OQA
derives the final results from a set of interaction tracking surveys that are well-conceived
and developed. OQA administers the surveys using generally acceptable survey
research methods. However, our audit identified five opportunities for improvements.
Our recommendations are as follows:

1. Incorporate additional customer populations in surveys

We recommend OQA incorporate additional customer populations, i.e., Internet and
mail, to improve the representativeness of the performance indicators. Excluding
possible customer populations is inconsistent with SSA’s strategic goal of delivering
citizen-centered, world-class service. Due to differences in the statistical approach
between the Internet surveys and the Interaction Tracking surveys, we recommend
OQA initially report the Internet customer satisfaction results separately from the
Interaction Tracking results. In the long run, we recommend OQA incorporate the
Internet survey results with the other service delivery channel results, as the Internet is
a growing service delivery channel.

OQA should develop annual estimates of the relative size of all non-trivial service
delivery channels using the best available current information. If a service delivery
channel cannot reasonably be included annually, OQA could review that channel less
frequently and use the results from the latest survey in the final performance indicators.
Alternatively, OQA could estimate the potential bias from the excluded channels and
report this bias with the final performance indicators.

2. Redesign survey schedule across entire calendar year

We recommend OQA redesign its schedule to conduct the surveys to extend across the
entire calendar year for each service delivery channel. OQA can maintain the same
total sample size with fewer customers surveyed in each time period. For example,
OQA selects six or seven FOs each week over the 16-week sample period for the
biannual Office Visitor surveys. OQA could instead select two FOs per week over the
entire year.

We recognize that distributing the same survey sample over the entire year increases
OQA’s time and expense to administer the surveys. We recommend OQA explore


Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                            8
several different options to balance the additional effort required for a continuous
survey. These can include:

   §   Developing more automated procedures to execute the sample selection and
       survey data analysis. Our audit identified manual steps in the survey process
       that could be automated through time-saving measures such as “batch
       programs” or “macros.”
   §   Reducing the scope of the survey questions. OQA indicated that the interaction
       tracking surveys are primarily used for public and not internal agency
       management information. OQA could eliminate the non value-added questions
       and reduce the size of the survey to only measure customer satisfaction.
   §   Providing more timely information regarding service. OQA may decide to use
       these surveys as a meaningful management tool by providing service
       performance feedback to FOs, HOs, and Teleservice Centers. This might justify
       devoting more resources to the survey rather than less. OQA can develop a
       comprehensive and ongoing survey program that reports on their ability to meet
       performance goals and provides valuable information for promoting and
       delivering better quality service. If the performance indicators do not add this
       value, OQA can reconsider whether they are the correct indicators to use.

OQA can determine what combination of the above recommendations provides the
most value to the organization.

3. Eliminate subjective determination of survey responses

We recommend that OQA not infer the value of missing responses on the Office Visitor
surveys from other responses or comments. The gain realized in response rate is not
sufficient to balance the risks associated with this subjective approach.

4. Incorporate internal controls to calculate final data

We recommend OQA add internal controls to validate the final performance indicator
data to ensure that survey weights are not inadvertently omitted and have been
associated with the appropriate data record. OQA should use this as an opportunity to
review and update all their current quality review procedures for the final indicator
calculations.

5. Improve methodology documentation for combining survey results into an
   annual result

We recommend OQA develop documentation that specifies its FY 2003 methodology
for combining the survey results. This documentation should contain the following
information:

   §   Which survey results will be included in the final calculations.




Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                        9
   §   Whether the final results will be weighted and, if so, how the weights will be
       calculated.
   §   The algorithm for calculating the final indicators, including the exact equation and
       any relevant rounding conventions that will be used.

OQA should review this documentation prior to conducting the first survey in FY 2003
and beyond. Any necessary edits to the procedures should be made and explained
within the documentation. This documentation can also serve as an audit trail of
changes made to the methodology over time.

AGENCY COMMENTS
SSA partially agreed with Recommendation 1. SSA agreed that it should measure the
satisfaction of customers who use SSA’s Internet services. However, SSA disagreed
that it should measure the satisfaction of customers who contact SSA via the mail. SSA
believes that the mail is not a major service delivery channel and there would be
challenges developing a sample frame. SSA disagreed with Recommendation 2 and
believes that the benefits of extending the survey schedule across the sample year
would be less than the additional effort and expense. Further, SSA stated that they
recently decided to reduce the frequency of these surveys to once per year. SSA
agreed with Recommendations 3 and 4. SSA disagreed with Recommendation 5 and
believes their existing documentation is sufficient. The full text of SSA’s comments can
be found in Appendix E.

PWC RESPONSE
With respect to Recommendation 1, PwC continues to believe that a review of all
service channel delivery methods, including the mail, would be beneficial to SSA. SSA
could survey mail customers less frequently, depending on the size of the population
and the difficulty of establishing a sampling frame. With respect to Recommendation 2,
PwC continues to believe that SSA should explore options for conducting surveys over
more of the year. Our suggestions were not intended to be inclusive of all options. We
believe that there are other options that SSA could explore to control costs while
conducting the survey over more of the year. For Recommendation 5, we reviewed the
referenced materials, but continue to believe that SSA should document its
methodology for combining the survey results prior to the start of the fiscal year. This
would provide SSA with a complete audit trail and be in full compliance with Office of
Management and Budget’s documentation requirements. The documentation should
reference the spreadsheets used, in addition to the methodology and common
practices, i.e., rounding to decimal places. This would also ensure that common
practices are consistent over time.




Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                       10
                                               Appendices
       APPENDIX A - Scope and Methodology

       APPENDIX B - Acronyms

       APPENDIX C - Flowcharts and Descriptions

       APPENDIX D - Statistical Appendix

       APPENDIX E - Agency Comments




Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)
                                                                     Appendix A
 Scope and Methodology
We conducted this audit to examine the Social Security Administration’s (SSA) Fiscal
Year (FY) 2002 customer satisfaction performance indicators. SSA developed these
performance indicators to meet the requirements of the Government Performance and
Results Act (GPRA) of 1993. Because FY 2002 survey data and results were not
available at the time of this audit, we used the latest available data (FY 2001) in our
audit of the controls and the final reported performance indicators. In addition, we
evaluated differences in methodology between FY 2001 and FY 2002.

To test the accuracy and reliability of the customer satisfaction performance data, we:

   §   Obtained FY 2001 data used to calculate the performance indicators, including
       data from the 800-Number Customer survey, the Field Office Caller survey, and
       the Office Visitor survey.
   §   Recalculated the FY 2001 customer service satisfaction.
   §   Evaluated the validity of Office of Quality Assurance and Performance
       Assessment’s (OQA) FY 2001 methodology used to calculate the performance
       indicators.
   §   Reviewed FY 2001 and FY 2002 procedures for sample selection.
   §   Evaluated the FY 2001 processes to execute the survey.
   §   Reviewed 45 surveys from FY 2001 to test internal controls for data entry.
   §   Evaluated the differences between the FY 2001 and FY 2002 survey procedures.
   §   Documented our understanding of the FY 2002 survey process.

In conducting this audit, we also:

   §   Reviewed SSA's Performance and Accountability Report for FY 2001, SSA's
       Annual Performance Plan for FY 2001, and SSA's Revised Final Performance
       Plan for FY 2002 to determine the baseline data, definition, and data source for
       the performance indicator.
   §   Reviewed GPRA and Office of Management and Budget guidance related to
       GPRA.
   §   Reviewed internal PricewaterhouseCoopers documentation on previous survey
       reviews.
   §   Interviewed Office of Strategic Management staff regarding the methodologies of
       the surveys.
   §   Interviewed OQA staff to gain an understanding of the sampling process, the
       statistical methods and other procedures used to produce the performance data.

Our audit was limited to testing at SSA’s Headquarters in Woodlawn, Maryland. The
procedures we performed were in accordance with the American Institute of Certified
Public Accountants’ Statement on Standards for Consulting Services and the General
Accounting Office’s Government Auditing Standards for performance audits.


Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)
                                                                     Appendix B

Acronyms

ANI                Automatic Number Identifier
E/VG/G             “Excellent”/ “Very Good”/ “Good”
FO                 Field Office
FY                 Fiscal Year
GPRA               Government Performance and Results Act
HO                 Hearing Office
OASDI              Old-Age, Survivors, and Disability Insurance
OQA                Office of Quality Assurance and Performance Assessment
OSM                Office of Strategic Management
OSSAS              Office of Statistics and Special Area Studies
PwC                PricewaterhouseCoopers LLP
SSA                Social Security Administration
SSI                Supplemental Security Income




Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)
                                                                     Appendix C

Flowcharts and Descriptions




Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)
                                                                                Customer Service Survey
                                                                                 800 Number Customer

                                                                                                                          OSSAS selects                                                 OSSAS selects a
                                                              ANI system                                                completed calls (1)                                             random sample of
                             Customer calls                                              MCI furnishes SSA                                               OSSAS selects
                                                           records customer                                               within sampling                                                    callers to
                             1-800 number                                                  with ANI data                                                 eligible calls (2)
                                                                 data                                                    period from ANI                                                   participate in
                                                                                                                                data                                                          survey




                              OSSAS sends
                                                                                            Contractor compiles
                            electronic file with                                                                               OSSAS applies                 OSSAS calculates
                                                              Contractor                   responses and sends
                              phone number,                                                                                    weights to the                 the final survey
                                                           administers survey                   to OSSAS
                            date, time of call to                                                                               sample data                         result
                                                                                               electronically
                                contractor




                                                                                  OSSAS writes and
                                                        Survey report              publishes report              OSSAS distributes
                                                                                      on survey                                                   Survey complete
                                                                                                                     report


                            OSSAS analyzes
                                results                  GPRA performance         OSSAS combines
                                                            indicator                                             OSSAS reports
                                                                                     results from
                                                                                                                    customer                  OSM publishes                     Performance
                                                                                  surveys weighted
                                                                                                                  satisfaction to             GPRA results                    Indicator results
                                                                                    by customer
                                                                                                                       OSM
                                                                                       universe




 1. A completed call is a call in which the customer has selected to use the automated system or speak with a SSA representative.

 2. An eligible call is one that meets one of the following criteria: (a) call made between 7am-7pm local time, (b) call from a phone number in which less than 100 calls were received for
    the day, (c) call made during the sample period.




Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                                                                                                                                          C-1
Customer Service Survey – 800-Number Customer:

§   The customer calls Social Security Administration’s (SSA’s) 800-Number.
§   The Automatic Number Identifier (ANI) system records the customer data.
§   MCI furnishes SSA with the ANI data.
§   Office of Statistics and Special Areas (OSSAS) selects the completed calls within the sampling period from the
    ANI data. A completed call is a call where the customer has selected to speak with a SSA representative or
    selected an option from the automated menu.
§   OSSAS selects the eligible calls from the completed calls. An eligible call is one that has been made between 7
    a.m. and 7 p.m. local time, came from a phone number that made less than 100 calls to SSA that day, and was
    made during the sample period.
§   OSSAS selects a random sample of callers to participate in the survey from the list of eligible calls.
§   OSSAS sends an electronic file with the selected customers’ information to the contractor.
§   The contractor administers the survey.
§   The contractor compiles survey responses and sends them electronically to OSSAS.
§   OSSAS applies survey weights to the sample data and calculates the final survey result.
§   OSSAS analyzes the final results.
§   OSSAS writes and publishes a report on customer satisfaction and the survey.
§   OSSAS distributes the report throughout SSA.
§   OSSAS analyzes the survey results for the Government Performance and Results Act (GPRA) performance
    indicator.
§   OSSAS combines the results from surveys and weights them by the customer universe.
§   OSSAS reports customer satisfaction for the GPRA performance indicator to Office of Strategic Management
    (OSM).
§   OSM publishes the GPRA results.




Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                                                    C-2
                                                              Customer Service Survey
                                                                    FO Caller


                                                          OTSO arranges                                                 Contractor               Contractor sends
                          OSSAS selects
  Annual survey                                          for installation of                                         downloads and               electronic files of      OSSAS extracts
                         FO to participate in                                          Customer calls FO
    selection                                            FO Caller ID and                                           extracts Caller ID              all callers to         customer data
                               survey
                                                         other equipment                                               information                     OSSAS




                                                          OSSAS sends the                                             Contractor compiles
                           OSSAS selects a                                                                                                               OSSAS applies       OSSAS calculates
  OSSAS selects                                           electronic sample                Contractor                responses and sends
                           sample of eligible                                                                                                            weights to the       the final survey
 eligible FO callers                                          file to the               administers survey              electronic file to
                              FO callers                                                                                                                  sample data               result
                                                              contractor                                                    OSSAS




                                                OSSAS writes and
                         Survey report
                                                 publishes report              OSSAS distributes
                                                   on survey                                                 Complete survey
                                                                                   report


 OSSAS analyzes
    results

                       GPRA performance         OSSAS combines
                                                                                OSSAS reports
                          indicator                results from
                                                                                  customer                   OSM publishes                 Performance
                                                surveys weighted
                                                                                satisfaction to              GPRA results                indicator results
                                                  by customer
                                                                                     OSM
                                                     universe




Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                                                                                                               C-3
Customer Service Survey – FO Caller:

§   OSSAS selects the Field Offices (FOs) to participate in the survey.
§   Office of Telecommunications and Systems Operations arranges for the installation of a Caller ID and other
    equipment in the selected FOs.
§   Customers call the FO.
§   The telephone contractor downloads and extracts customer information from the Caller ID system.
§   The contractor sends an electronic file of all the callers to OSSAS.
§   OSSAS extracts the data from the electronic file.
§   OSSAS selects the eligible FO callers.
§   OSSAS selects a sample of eligible FO callers to participate in the survey.
§   OSSAS sends an electronic file with the selected customers’ information to the contractor.
§   The contractor administers the survey.
§   The contractor compiles survey responses and sends them electronically OSSAS.
§   OSSAS applies survey weights to the sample data and calculates the final survey result.
§   OSSAS analyzes the final results.
§   OSSAS writes and publishes a report on customer satisfaction and the survey.
§   OSSAS distributes the report throughout SSA.
§   OSSAS analyzes the survey results for the GPRA performance indicator.
§   OSSAS combines the results from the surveys and weights them by the customer universe.
§   OSSAS reports customer satisfaction for the GPRA performance indicator to OSM.
§   OSM publishes the GPRA results.




Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                                               C-4
                                                     Customer Service Survey
                                                          Office Visitor



                                                                                                 FO enters                                         OSSAS selects
                      OSSAS selects                                                                                   FO or HO sends
                                            OSSAS notifies                                        customer                                        random sample of
  Annual survey      random sample of                             Customer visits                                     electronic list of
                                             FO or HO of                                       information in                                       customers to
    selection          52 FOs and 13                                FO or HO                                           customers to
                                              selection                                     Access database                                          participate in
                           HOs                                                                                            OSSAS
                                                                                            or tracking system                                      mailed survey




      OSSAS
   electronically                                                     OSSAS enters the
                                                                                                    OSSAS reviews             OSSAS applies             OSSAS calculates
     sends the           Contractor              Customer mails            customer
                                                                                                    information for           weights to the             the final survey
 customer list and    administers survey        survey to OSSAS        information into
                                                                                                      completion               sample data                     result
    survey to a                                                             Blaise
    contractor




                                           OSSAS writes and
                         Survey report      publishes report              OSSAS distributes
                                              on survey                                                           Survey complete
                                                                              report

 OSSAS analyzes
    results


                        GPRA performance     OSSAS combines
                                                                          OSSAS reports
                            indicator           results from
                                                                            customer                         OSM publishes                   Performance
                                             surveys weighted
                                                                          satisfaction to                    GPRA results                  Indicator results
                                               by customer
                                                                               OSM
                                                  universe




Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                                                                                                    C-5
Customer Service Survey – Office Visitor:

   §   OSSAS selects a random sample of 52 FOs and 13 Hearing Offices (HO) to participate in the survey.
   §   OSSAS notifies the FO and HO of their selection to participate in the survey.
   §   The customer visits the FO or HO.
   §   The FO or HO enters the customer’s information into the Access data base or other tracking system when the
       customer checks-in at the receptionist desk.
   §   The FO or HO sends the electronic list of customers and their information to OSSAS.
   §   OSSAS selects a random sample of customers to participate in the mailed survey.
   §   OSSAS electronically sends the names and addresses of selected customers to the contractor.
   §   The contractor administers the survey via mail.
   §   The customer returns the survey to OSSAS after completion.
   §   OSSAS enters the survey responses into Blaise.
   §   OSSAS reviews the information entered into Blaise for completion.
   §   OSSAS applies survey weights to the sample data and calculates the final survey result.
   §   OSSAS analyzes the final results.
   §   OSSAS writes and publishes a report on customer satisfaction and the survey.
   §   OSSAS distributes the report throughout SSA.
   §   OSSAS analyzes the survey results for the GPRA performance indicator.
   §   OSSAS combines the results from the surveys and weights them by the customer universe.
   §   OSSAS reports customer satisfaction for the GPRA performance indicator to OSM.
   §   OSM publishes the GPRA results.




Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                                                  C-6
                                                                     Appendix D

Statistical Appendix
1. Methodology for the selection of Field Offices (FO) and Hearings Offices (HO)
to participate in Social Security Administration’s (SSA) customer satisfaction
surveys

800-Number Customer Survey
Each year, the Office of Quality Assurance and Performance Assessment (OQA)
selects customers who call SSA’s 1-800-Number to participate in the 800-Number
Customer Satisfaction Survey. Because FOs and HOs do not provide customer service
to these customers via the 1-800-number, OQA does not select FOs or HOs to
participate in this survey.

FO Caller Survey
Each year, OQA selects a sample of 110 offices to participate in its FO Monitoring
Survey. OQA selects the sample without replacement from the current population of
eligible FOs. Eligible FOs are those that have not been selected in previous years.
OQA began this selection process in FY 2000.

The sample selection methodology first stratifies the sample frame by telephone type.
The stratification is:

                  Telephone System                 Number Selected
                      Executone                            31
                         IVX                                5
                        Fujitsu                            74

Within each telephone system type, sample selection is proportional to the number of
FOs within each region and for each area within a region.

From this initial sample of 110 FOs, OQA selects a sub-sample of offices to participate
in the FO Caller Survey. The sub-sample is a systematic sample from the parent
sample, after sorting the parent sample by telephone system, region, and area. Thus,
the FO Caller survey sample has a distribution of telephone system type, region, and
area similar to the parent FO Monitoring Survey sample.

In FY 2001, the FO Caller Survey sub-sample consisted of 75 of the 110 offices from
the FO Monitoring Survey. Although phone system limitations make it impossible to
sample every office, OQA attempts to survey as many of the 75 offices as possible. For
FY 2001, 49 of the 75 offices were included in the November 2000 survey and 41 of the
75 offices were included in the May 2001 survey.



Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                    D-1
Office Visitor Survey
The Office Visitor Survey is conducted at 52 FOs and 13 HOs twice each year. For
each survey execution, the offices are selected without replacement from the current list
of eligible FOs or HOs. Eligible offices are those that have not been selected in
previous years. This process began in FY 2000.

While HOs are selected as a simple random sample, OQA selects FOs by region. The
number of FOs from each region is proportional to the number of FOs in that region.
The distribution of FOs sampled by region is:

                         Region Name              FOs Sampled
                            Boston                      3
                           New York                     5
                          Philadelphia                  6
                            Atlanta                    10
                           Chicago                      9
                            Dallas                      6
                          Kansas City                   3
                            Denver                      2
                         San Francisco                  6
                            Seattle                     2

Additionally, two extra FOs are selected for each region as backups if a FO cannot be
surveyed. According to OQA, the extra offices are rarely needed. If not used, the FO
may be selected in future time periods.

2. Weighting of survey estimates

SSA combines the results of the 800-Number Customer, FO Caller and Office Visitor
Surveys to generate a single customer satisfaction rating. This final estimate is
produced by proportionally weighting each of the component surveys by the appropriate
customer universe it represents.

The final weighting used for the Fiscal Year (FY) 2001 results was as follows:

                         Survey                             FY 2001 Universe
         August 2000 800-Number Customer                          38,000,000
         February 2001 800-Number Customer                        38,000,000
         November 2000 FO Caller                                  42,500,000
         May 2001 FO Caller                                       42,500,000
         July 2000 Office Visitor – FO                            10,500,000
         January 2001 Office Visitor – FO                         12,000,000
         July 2000 Office Visitor – HO                               114,000
         January 2001 Office Visitor – HO                            153,000




Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                    D-2
Note that OQA weights each of the 800-Number Customer and FO Caller surveys
equally at one half the estimated customer universes of 76,000,000 and 85,000,000,
respectively.

3. Impact of not performing a survey continuously

Taking a survey over a limited time period and then projecting the results to a larger
time period introduces a risk that the reported results may be biased. The risk is
realized when the results from a time period that is not sampled are systematically
different compared to the result from a time period that is sampled. We developed a
simple approximation to demonstrate the possible magnitude of that risk for the
customer satisfaction surveys.

800-Number Customer and FO Caller Surveys
In the report we state that for each percentage point difference in customer satisfaction
during non-sampled time periods, OQA results are overstated or understated by
0.85 percentage points.

This is supported by the following analysis:

   §   Assume the true level of customer satisfaction for the period surveyed is x%.
       This level is applicable for the 8 weeks of the year for which the two surveys are
       conducted.
   §   Assume the true level of customer satisfaction for the period not surveyed is one
       percentage point greater, or (x+1)%. This level is applicable for the 44 weeks of
       the year during which no survey is conducted (52 weeks – 8 weeks).
   §   The true level of customer satisfaction for the entire year should be:

                                                8(x)% + 44(x+1)%
       True customer satisfaction             = -------------------------
                                                         52
   §   The bias of incorrectly using x% to estimate the customer satisfaction is found by
       calculating the difference between the rate from the sampled time period and the
       true customer satisfaction rate or:

               Bias = x% - True customer satisfaction

       The bias equals -0.85 percent for a +1 percent difference.

As a result, if the non-sampled period satisfaction rate is 1 percentage point greater
than the sampled period, customer satisfaction is understated by 0.85 percent. If the
satisfaction rate in the non-sampled periods is 1 percentage point lower, the customer
satisfaction is overstated by 0.85 percent.




Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                       D-3
Office Visitor Survey
In the report we state that for each percentage point difference in customer satisfaction
during non-sampled time periods, OQA results are overstated or understated by
0.69 percentage points.

This is supported by the following analysis:

   §   Assume the true level of customer satisfaction for the period surveyed is x%.
       This level is applicable for the 16 weeks of the year for which the two surveys are
       conducted.
   §   Assume the true level of customer satisfaction for the period not surveyed is one
       percentage point greater, or (x+1)%. This level is applicable for the 36 weeks of
       the year during which no survey is conducted (52 weeks – 16 weeks).
   §   The true level of customer satisfaction for the entire year should be:

                                                16(x)% + 36(x+1)%
       True customer satisfaction             = -------------------------
                                                         52
   §   The bias of incorrectly using x% to estimate the customer satisfaction is found by
       calculating the difference between the rate from the sampled time period and the
       true customer satisfaction rate or:

               Bias = x% - True customer satisfaction

       The bias equals -0.69 percent for a +1 percent difference.

As a result, if the non-sampled period satisfaction rate is 1 percentage point greater
than the sampled period, customer satisfaction is understated by 0.69 percent. If the
satisfaction rate in the non-sampled periods is 1 percentage point lower, the customer
satisfaction is overstated by 0.69 percent.

The following table summarizes the potential impact of the bias for a range of
differences between the sampled period and the non-sampled period.

          Effect of Possible Non-Sampling Bias on Overall Survey Results
  If percentage from non-     Bias to overall indicator for Bias to overall indicator for
 sampled period is different 800-Number Customer and           Office Visitor Survey
than for sampled period by:       FO Caller Surveys
           -1.0%                        0.85%                         0.69%
           -0.5%                        0.42%                         0.35%
            0.0%                        0.00%                         0.00%
            0.5%                        -0.42%                        -0.35%
            1.0%                        -0.85%                        -0.69%

To precisely calculate the potential bias, we would require knowledge of the exact
customer universe sizes. The observations we have made represent approximate


Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                     D-4
impacts because they use weeks as a proxy for the true customer universe sizes. For
instance, the number of 800-Number callers during the 8 weeks of survey activity is
probably, but not precisely equal to 8/52 of the total 800-Number calls for the entire
year.




Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                   D-5
                                                                     Appendix E

Agency Comments




Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)
                                           SOCIAL SECURITY

MEMORANDUM


Date:      January 22, 2003                                                     Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Performance Indicator Audit: Customer
           Satisfaction” (A-02-02-11082)—INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Staff questions may be referred to Laura Bell on extension 52636.

           Attachment:
           SSA Response




           Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                           E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT “PERFORMANCE INDICATOR AUDIT: CUSTOMER SATISFACTION”
(A-02-02-11082)

We appreciate the opportunity to review and comment on the draft report. We are
pleased with your conclusion that our performance indicators for fiscal year (FY) 2001
were accurately and reasonably calculated, and that the surveys from which they were
derived were well conceived and developed.

With respect to the areas identified as presenting opportunities for improvement, we do
not believe that the degree of precision recommended by PricewaterhouseCoopers
(PwC) is warranted or justifiable from a resource perspective. This is especially true
given that the indicators are based on opinion research, which is by its nature relatively
soft, and not comparable to financial or accuracy data.

Finally, we would like to note that the Performance Indicator: Customer Satisfaction,
was based on surveys that were done under the Agency's Market Measurement
Program which have been revamped and is now called the Service Delivery Feedback
Program.

Our response to the specific recommendations are provided below:

Recommendation 1

The Social Security Administration (SSA) should incorporate additional customer
population surveys into their customer satisfaction performance indicator.

SSA Response

We agree that it is important to understand the needs and satisfaction levels of all who
do business with SSA including those who write, call, visit our offices, and use our
Internet site in order to achieve our goal of providing world-class, citizen-centered
service.

We would point out that the performance indicator aims to reflect satisfaction with SSA’s
primary modes of service delivery which are telephone and in-person service. Mail is
not a major service delivery channel through which the public initiates contact with SSA.
Moreover, we would have some challenges in developing a sample frame, because we
presently have no consolidated repository for recording mail contacts with SSA’s over
1,300 field and headquarters components. We believe we can obtain an adequate
indication of customer satisfaction without targeting those who send us mail.

With respect to the Internet, we acknowledge that this is a significant and growing area
of service delivery in government, and it is important to capture feedback from those
who choose to do business with us this way. As part of our overall program for
obtaining public opinion on service delivery, we regularly survey visitors to ssa.gov, both



Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                      E-2
through an online questionnaire, and as part of other telephone or mail-based surveys.
This activity gives us valuable information on Internet user experience and satisfaction,
which we can use to make improvements and support our various eGov initiatives.

The sampling methodology for carrying out our Internet surveys differs in some
essential respects from that of our other satisfaction surveys. We would need to work
through certain challenges to incorporate and combine the results from both surveys, in
order to preserve data integrity and comparability. However, we believe it is an
important area to explore, and agree to look into the possibilities of developing a
statistically sound methodology for combining the results from both surveys into a single
measure.

In the meanwhile, for the short term, we will also look into reporting separately on
Internet satisfaction results, based on our current survey activity in this area.

Recommendation 2

SSA should redesign the survey schedule across the entire calendar year.

SSA Response

We disagree. While PwC recognized that distributing the survey samples over the
entire year will increase our time and expense to administer the surveys, we do not
believe that the options they offer would significantly balance the additional effort and
expense that would be required. In addition, we have recently decided to reduce the
frequency of these surveys to once per year, reflecting their main function as a gauge of
public opinion rather than a tool for managing service delivery which is better addressed
by local data-gathering.

Recommendation 3

SSA should eliminate subjective determinations of survey responses.

SSA Response

We agree that subjective determinations should not occur when evaluating customer
satisfaction survey responses. Our current coding policy directs the keyers to record
the value of missing responses only when the respondent's comments use the exact
wording of the rating scale in describing SSA's service. We believe that this is an
acceptable survey research practice because it does not involve a subjective evaluation
on the part of the keyer since, in these rare instances, the respondent's comments must
mirror the exact wording of the rating scale in describing SSA's service.

Recommendation 4

SSA should incorporate internal controls to calculate final data.



Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                     E-3
SSA Response

We agree and have already taken steps to incorporate better controls throughout the
process.

Recommendation 5

SSA should improve methodology documentation for combining survey results into an
annual result.

SSA Response

We disagree. The documentation of the methodology for combining survey results to
produce the performance indicator has been included in the annual memorandum
releasing results to the Agency starting with FY 2000. In addition, we maintain
spreadsheets with the pertinent formulas in our electronic files.




Performance Indicator Audit: Customer Satisfaction (A-02-02-11082)                    E-4
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Management Analysis and Audit Program Support Staff, OFAM
Inspector General
Assistant Inspector General for Investigations
Assistant Inspector General for Executive Operations
Assistant Inspector General for Audit
Deputy Assistant Inspector General for Audit
 Director, Data Analysis and Technology Audit Division
 Director, Financial Audit Division
 Director, Southern Audit Division
 Director, Western Audit Division
 Director, Northern Audit Division
 Director, General Management Audit Division
Team Leaders
Income Maintenance Branch, Office of Management and Budget
Chairman, Committee on Ways and Means
Ranking Minority Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman, Subcommittee on Social Security
Ranking Minority Member, Subcommittee on Social Security
Majority Staff Director, Subcommittee on Social Security
Minority Staff Director, Subcommittee on Social Security
Chairman, Subcommittee on Human Resources
Ranking Minority Member, Subcommittee on Human Resources
Chairman, Committee on Budget, House of Representatives
Ranking Minority Member, Committee on Budget, House of Representatives
Chairman, Committee on Government Reform and Oversight
Ranking Minority Member, Committee on Government Reform and Oversight
Chairman, Committee on Governmental Affairs
Ranking Minority Member, Committee on Governmental Affairs
Chairman, Committee on Appropriations, House of Representatives
Ranking Minority Member, Committee on Appropriations,
 House of Representatives
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman, Committee on Appropriations, U.S. Senate
Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate
Chairman, Committee on Finance
Ranking Minority Member, Committee on Finance
Chairman, Subcommittee on Social Security and Family Policy
Ranking Minority Member, Subcommittee on Social Security and Family Policy
Chairman, Senate Special Committee on Aging
Ranking Minority Member, Senate Special Committee on Aging
President, National Council of Social Security Management Associations,
  Incorporated
Treasurer, National Council of Social Security Management Associations,
  Incorporated
Social Security Advisory Board
AFGE General Committee
President, Federal Managers Association
Regional Public Affairs Officer
                   Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                 Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                      Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
